<html>
<title> - [H.A.S.C. No. 113-92]MILITARY PERSONNEL OVERVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                                

 
                        [H.A.S.C. No. 113-92]


                     MILITARY PERSONNEL OVERVIEW

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             MARCH 25, 2014


                                     
[GRAPHIC] [TIFF OMITTED] 

                                  ______

                         U.S. GOVERNMENT PRINTING OFFICE 

87-855 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman

WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
JOSEPH J. HECK, Nevada               ROBERT A. BRADY, Pennsylvania
AUSTIN SCOTT, Georgia                MADELEINE Z. BORDALLO, Guam
BRAD R. WENSTRUP, Ohio               DAVID LOEBSACK, Iowa
JACKIE WALORSKI, Indiana             NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
KRISTI L. NOEM, South Dakota
               Dave Giachetti, Professional Staff Member
                 Debra Wada, Professional Staff Member
                           Colin Bosse, Clerk
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, March 25, 2014, Military Personnel Overview.............     1

Appendix:

Tuesday, March 25, 2014..........................................    19
                              ----------                              

                        TUESDAY, MARCH 25, 2014
                        
                      MILITARY PERSONNEL OVERVIEW
                      
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Bromberg, LTG Howard B., USA, Deputy Chief of Staff, G-1, U.S. 
  Army
Cox, Lt Gen Samuel D., USAF, Deputy Chief of Staff for Manpower, 
  Personnel and Services, U.S. Air Force
Moran, VADM William F., USN, Chief of Naval Personnel and Deputy 
  Chief of Naval Operations (Manpower, Personnel, Training and 
  Education), U.S. Navy
Murray, Sheryl E., Assistant Deputy Commandant for Manpower and 
  Reserve Affairs Headquarters, U.S. Marine Corps
Wright, Jessica L., Acting Under Secretary of Defense for 
  Personnel and Readiness, Department of Defense

                                APPENDIX

Prepared Statements:

    Bromberg, LTG Howard B.......................................    62
    Cox, Lt Gen Samuel D.........................................   107
    Davis, Hon. Susan A..........................................    25
    Moran, VADM William F........................................    84
    Murray, Sheryl E.............................................   138
    Wilson, Hon. Joe.............................................    23
    Wright, Jessica L............................................    27

Documents Submitted for the Record:

    Charts: Monthly Impact of PB15 Proposals on Military Members 
      with Specific Family Sizes.................................   171
    Statement of The Fleet Reserve Association on Military 
      Personnel Policy, Benefits, and Compensation...............   157

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   183
    Mrs. Davis...................................................   181
    Mr. Wilson...................................................   181

Questions Submitted by Members Post Hearing:

    Ms. Tsongas..................................................   187
    
 
                      MILITARY PERSONNEL OVERVIEW

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                           Washington, DC, Tuesday, March 25, 2014.
    The subcommittee met, pursuant to call, at 3:17 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, the hearing will come to 
order. Welcome to a meeting of the House Armed Services 
Subcommittee on Military Personnel.
    This subcommittee hearing will examine military personnel 
issues in the Armed Services Committee, including force 
drawdown plans, military health programs, military compensation 
programs, and other personnel policies and programs. Today the 
subcommittee will turn its attention to the important issue of 
maintaining an All-Volunteer Force that has experienced almost 
13 years of persistent conflict, beginning with the attack on 
our country on September the 11th, 2001, by jihadists who have 
declared war on America.
    The military is now facing the largest drawdown and most 
draconian budget reductions since the end of the Cold War. The 
budgetary requirement for the Department of Defense to 
significantly reduce spending calls for a leaner and more 
adaptable force that impacts virtually all defense personnel 
activities. The President's budget substantially reduces ground 
and Air Force end strength and slows the growth of compensation 
and personnel benefit programs for all service members, 
shifting spending to other programs.
    Our focus will include actions the services have taken to 
create efficiencies in personnel programs to include pay and 
compensation, along with the policies and programs that still 
need to be examined to successfully continue down a path of 
fiscal responsibility without undermining the readiness of the 
All-Volunteer Force at a time of unprecedented instability and 
threats to America from across the world. I am also concerned 
about the manpower reductions that all services will undertake 
and how they will employ voluntary and involuntary separation 
measures to achieve those reductions, and how they will reduce 
the non-deployable populations in their services.
    The subcommittee's goal today is to better understand how 
the Department of Defense will balance the budgetary realities 
of today and the future with the readiness and morale and 
continued success of the All-Volunteer Force.
    Before I introduce our panel, let me first offer 
Congresswoman Susan Davis, from California, an opportunity to 
make her opening remarks.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 23.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman.
    And I also wanted to welcome our witnesses today, Ms. 
Wright, General Bromberg, General Cox, Admiral Moran, and Ms. 
Murray. And thank you all for being here.
    We know that you are going to suspend your statements, I 
understand, but I am certain that we will cover many, many of 
those issues as we ask questions looking at how the proposed 
budget changes that are being sought would impact our military 
personnel and their families. That is of great concern to us.
    I remember, Mr. Chairman, a hearing several years ago when 
we talked, I certainly mentioned the difficulty that we will 
face as budgets decline and the knowledge that many difficult 
decisions will have to be made, and here we are. This is really 
the time that we are beginning to have to face many of those 
difficult decisions.
    I know that the services have made good-faith efforts to 
fund quality-of-life programs for service members and their 
families in the base budget as we move forward, but we are also 
concerned about what impact sequestration also could have on 
any of these plans in the future.
    We are faced with several significant proposed changes, 
from a limit to the pay increase required by the law, to an 
increase in out-of-pocket costs for housing allowance, to 
significantly changing the military health care system, and 
removing appropriated support for our commissaries. Those are 
all a very big deal, and so we need to look at those in total.
    While the chief had indicated that the services don't want 
to piecemeal this effort, it would seem to me that as we move 
forward here we are starting to do some of that as we look at 
these personnel programs.
    I am certainly sympathetic to the challenges that we are 
facing under sequestration, but we all, I think, want to better 
understand the reasoning and the business case analysis that 
went into these proposals and the actual impact that they are 
going to have on our families. In particular, I am concerned 
that these decisions did not necessarily take into full account 
of the views and the desires of our military personnel and 
their families.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 25.]
    Mr. Wilson. Thank you, Mrs. Davis.
    We are joined today by a dedicated panel consisting of the 
Under Secretary of Defense for Personnel and Readiness and the 
personnel chiefs or their deputies of the military services to 
help us explore these issues. Now I would like to welcome our 
distinguished witnesses.
    Ms. Jessica Wright, Acting Under Secretary of Defense, 
Personnel and Readiness. Secretary Wright has recently returned 
from a long convalescence from a hip replacement surgery.
    And best wishes. Many of us here will be following your 
road. We wish you well.
    Lieutenant General Howard B. Bromberg, U.S. Army, Deputy 
Chief of Staff, G-1. And sadly for all of us, this is General 
Bromberg's last hearing before our committee, but our next two 
it is their first appearance, and we wish General Bromberg well 
on his future.
    Vice Admiral William F. Moran, U.S. Navy, Chief of Naval 
Personnel and Deputy Chief of Naval Operations, Manpower, 
Personnel, Training, and Education. Lieutenant General Samuel 
Cox, U.S. Air Force, Deputy Chief of Staff, Manpower, 
Personnel, and Services. Ms. Sheryl E. Murray, Assistant Deputy 
Commandant for Manpower and Reserve Affairs Headquarters, U.S. 
Marine Corps.
    I now will be asking unanimous consent to enter a statement 
from the Fleet Reserve Association into the record.
    [The information referred to can be found in the Appendix 
on page 157.]
    Mr. Wilson. Without objection, so ordered.
    Additionally, I would like to, due to time constraints of 
earlier voting, I would ask unanimous consent that our 
witnesses' opening statements be entered into the record, and 
then we will begin questioning in rounds of 5 minutes each 
until adjournment.
    [The witness prepared statements can be found in the 
Appendix beginning on page 27.]
    Mr. Wilson. Hearing no objection, we will begin with me, 
and each one of us will be held to 5 minutes, including me. And 
we have got somebody above reproach--David Giachetti--who is a 
person known for timekeeping. So this is good.
    For each of you a question that I have, and that is that, 
do you see the additional out-of-pocket housing expense 
combined with the reduced less than ECI [Employment Cost Index] 
pay raise and an increase in commissary prices as a cut in the 
purchasing power of our service members? How do you expect 
these reductions to affect the day-to-day financial decisions 
and possibly the decision to even remain in the service that 
our junior enlisted members and their families will be facing?
    And we will begin with Ms. Wright.
    Ms. Wright. Thank you, Mr. Chairman.
    First I would like to say that we believe that the quality 
of life of our military personnel is good. We also know that we 
need to slow the growth in compensation and benefits in order 
to balance that with our readiness and modernization. And so 
what this budget reflects is just that: a slowing of the 
growth--and that is why we are asking for a 1 percent as 
opposed to a higher percentage, so we can slow that growth of a 
military member's pay--and then also be able to bolster their 
readiness and bolster force--and bolster their modernization.
    At this point in time quality of life is good but quality 
of service, we believe, for our military member is lower. And 
so we would like to balance that for our service member.
    Mr. Wilson. And has it been determined--and I will get to 
General Bromberg--but has it been determined what the actual 
cost of each item that I--and you can get back for the record 
on this please----
    Ms. Wright. Yes, sir. I will get back for the record.
    [The information referred to can be found in the Appendix 
on page 181.]
    Mr. Wilson [continuing]. But it may appear minimal, but to 
me it would be monumental if it was me. As I well remember when 
I was in the military, every expense was something that was a 
challenge, and so I would love to see an analysis. And you can 
get back with me on that.
    Ms. Wright. Yes, sir. I will provide it. Thank you.
    Mr. Wilson. Thank you.
    And General Bromberg.
    General Bromberg. Yes, sir. I think, you know, this is a 
holistic approach we have to take to this because what we can't 
sacrifice is we can't sacrifice readiness and we can't 
sacrifice the quality of life. And one of the things we hold 
very dear--I think everybody would agree that we can't afford 
to lower the training standard at the expense of something 
else, because the last thing you want to do is deploy somebody 
who hasn't been trained to the level they are supposed to. I 
think that is the ultimate level of soldier care that we are 
after.
    So I think when we put all these different programs 
together on slowing growth I think we will step back, take a 
look at it holistically, balance that with readiness, and see 
if that is the right approach.
    Mr. Wilson. Thank you.
    Admiral Moran. Mr. Chairman, I would agree with General 
Bromberg. In my first 6 months on the job, going out and 
talking to sailors to get their feel for how things are going 
from their perspective, I hear more from them about their 
quality of service, as has been reflected here, in terms of 
their ability to do their job. So for us it is manning of the 
fleet, manning at sea; it is about providing them the 
equipment, the training, and the support so they are ready to 
do their job when asked.
    And of course, as you know, we are out there in a big way 
right now and so having that--having to trade, if you will, 
some of the personnel accounts on one side--pay and 
compensation for--in favor of those things that support 
training and readiness is part of our budget submission.
    Mr. Wilson. Thank you, Admiral.
    General.
    General Cox. From the Air Force perspective, clearly it is 
agreed completely with the slowing of the growth to make 
certain we can balance readiness, modernization, and the 
readiness together to make sure that we have all those pieces 
tied together. And we need to make sure that we look at it from 
a holistic--all of the factions--this issue of pay and 
benefits--together to make sure that we get the right decision 
on this.
    Mr. Wilson. Ms. Murray.
    Mrs. Murray. Sir, we have had to make some very difficult 
decisions, as you know, as we work through this fiscal 
environment. I echo what my colleagues have said here on the 
panel.
    I would just emphasize, our Marines do enjoy a good quality 
of life. Our families love being in the Marine Corps family.
    Most of all, they want the right equipment to go to war, 
they want to be trained, and they want to be ready. And we have 
found that that is the overriding desire of our Marines.
    Thank you.
    Mr. Wilson. As I conclude, I would like to thank each of 
you, but I speak for myself, I am concerned about the quality 
of life for our service members, and particularly on the 
commissaries. This is a way forward, have a worldwide system 
where you have dependents and also spouses who can find 
employment, and I am very, very concerned.
    And I don't want to pit anybody against each other. The 
primary function of our national government should be national 
defense.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    Ms. Wright, I wonder if you could share with us a little 
bit--and I think the services are obviously here to respond, as 
well--how much input the services had in this decisionmaking 
and how. I mean, how was that done?
    And I am also interested in knowing whether the personnel 
surveys that are done--the role that they play. How much input, 
again, into the Comptroller and others did those services have? 
Could you share some of that with us?
    And I would ask the services, as well, you know, did they 
feel that sufficient time and effort, or how would you have 
done it differently?
    Ms. Wright. The Comptroller led the charge for the budget 
with the Deputy Secretary of Defense, but it was negotiated 
with all of the services; it was negotiated with the Chairman 
of the Joint Chiefs; it was negotiated with the service 
secretaries and with the service chiefs in multiple tanks that 
they have at multiple levels.
    So I was in contact all the time with the Joint Staff, and 
the Joint Staff in my particular realm was in contact with me. 
And I would say that is how, across the Department, that it 
worked.
    Mrs. Davis. Were there some areas that really jumped out--
and as you said, it was negotiated--where were some of the key 
challenges?
    Ms. Wright. These, from beginning to end, were very, very 
hard, laborious choices to make. And we had to make them based 
upon--based upon the money at hand and based upon what we 
needed to do to balance the entire Department, not to focus 
particularly on compensation and leave training and readiness 
out. But we needed to make a holistic approach so that, one, 
the family and the service member would not suffer on the side 
of compensation, but also the service member would be trained 
and well-equipped to do what we ask them to do and to provide 
them the ability to do their job. It is a different 
environment, as you know, and it was just very, very difficult.
    So again, even in my realm, I have a young lieutenant as a 
son, and so would he like to get paid more? Yes. But also, 
would he like to be able to do the training that he is trained 
to do as an infantry officer? Yes. So that balance is hard to 
achieve.
    Mrs. Davis. Thank you.
    Yes. Please.
    General Bromberg. Yes, ma'am.
    Mrs. Davis. General Bromberg.
    General Bromberg. We were included in the discussions at 
several levels, as Ms. Wright indicated. I think these are just 
extremely hard choices, and particularly for the Army as we are 
drawing down, potentially, with full sequestration, up to 
420,000. That balance between end strength, modernization, and 
readiness is actually critical.
    So we are kind of in this box that we have to go to do 
something to slow the compensation. We don't want to take money 
out of people's pockets but we have to do something to maintain 
that readiness.
    As you are very well aware, ma'am, you know, we are still 
deploying people to Afghanistan as we speak. We just can't 
continue this without some kind of change. And unfortunately, 
this is the areas we have to start looking at.
    Mrs. Davis. Could you speak to this quickly, and we will go 
to the admiral, in terms of the personnel surveys, what role 
they played? Are these areas that families have said, ``We 
don't--we are not as concerned about these areas 
particularly''?
    General Bromberg. We do use the surveys for feedback, and 
part of that challenges is the timing of those surveys because 
they just see what is in the paper, they don't see how we are 
actually trying to restructure services and don't know exactly 
the full extent yet. I think as we get to the full extent of 
what those real savings are or what those real expenses are we 
will have to watch that very carefully.
    Mrs. Davis. Admiral.
    Admiral Moran. Yes, ma'am. We also were very much involved 
in the process.
    And I think at the beginning when we were showed the long 
view of the unsustainable rate of growth in some of our pay and 
compensation packages, we all knew that it was necessary to 
slow that growth, and I think that has been well articulated 
here. But we do use survey data to help inform how we approach 
our arguments in those sessions and we have used that.
    But again, principally I think our sailors and their 
families are pretty satisfied with their quality of life, 
meaning their pay and compensation, but are concerned about the 
readiness-degraders that have been evident over the last year, 
and that has been the primary approach that we took in the 
budget.
    Mrs. Davis. General.
    General Cox. Ma'am, like my colleagues, the Air Force 
certainly has been included in some of the discussions 
associated with in extraordinary times with the budget 
environment that we face, the fact that, you know, last year we 
grounded 31 fighter squadrons. It is significant.
    We need to make sure that we are focused on readiness today 
and readiness for the future, as well. So we, like the other 
services, also use surveys to help us inform us as we are 
making decisions about what programs to keep or not keep.
    Mrs. Davis. All right. Thank you.
    Thank you, Mr. Chairman.
    Mr. Wilson. Thank you, Mrs. Davis.
    We now proceed to Congressman Walter Jones, of North 
Carolina.
    Mr. Jones. Mr. Chairman, thank you very much.
    And we all know that with this tight budget situation and 
the downsizing of all of our services to a certain point that 
this creates a very difficult time for those in uniform who 
have given so much for our Nation and their families because 
all of a sudden they are going from a military lifestyle to a 
civilian lifestyle.
    And I am going to start--this is for each one of you, but I 
am going to start with Ms. Murray because we have had several 
marines from Camp Lejeune to contact our district office in 
North Carolina concerned about the amount of time--or I should 
say the lack of time that they have had between being notified 
that they are going to be honorably discharged and the period 
of time that they have to go through the process to retire. And 
I would like to know, on behalf of the marines down in my 
district as well as the other services, give us an example of, 
if you can, of how that process works.
    Marine Jones have been notified, ``You will no longer be 
serving in the Marine Corps. We thank you and this is the end 
of your service.'' So then I have a process that I have to go 
through, and it is not an easy process, as any of us would know 
before the time is that you will be retired from the Marine 
Corps.
    Okay, if they still between--in that period of time, if 
they still have duties to do then it makes it very difficult 
for the individual and their families to make--to juggle 
everything that needs to be done.
    So would you tell us how the Marine Corps, and then if we 
have time, go through each service, as how you are handling 
this very traumatic time for that individual who has now been 
told, ``we no longer need your service''?
    Mrs. Murray. Thank you very much for that question. I 
understand that that is traumatic for any military member who 
wants to remain and yet finds that they are going to go home.
    We have revamped our transition assistance program in the 
last year. It used to be an event that happened very, very soon 
before they left Active Duty and now they have up to a year to 
transition. But we do have--our commanders must ensure that the 
marines have an opportunity to participate in the transition 
assistance.
    And the program, by the way, we believe, has now--it is not 
a one-size-fit-all. There are four pathways. So those marines 
must be allowed to go to training and they have an opportunity 
to pursue a pathway that will take them to education, being 
able to use the post-9/11 GI bill. If they want to be an 
entrepreneur there is a pathway for that. I think you are 
probably familiar with those.
    More specifically though to your question, the commanders 
are given the responsibility to ensure that marine has that 
opportunity. And if you have any specific examples that you 
want to give me I will be happy to look into that because that 
opportunity is critical for our marines. We value their 
service. We want to help them move on and be productive 
citizens in this great Nation.
    Mr. Jones. Thank you.
    General Cox. For the Air Force, one of the things that the 
secretary and the chief have committed to is before any 
involuntary separation you will be at least notified with 6 
months of planning time, and then beyond that, 4 months from 
the date of the separation, directed separation, before you are 
out of the service.
    We have voluntary programs that precede all of the 
involuntary programs to make sure that that is in place. And 
then on top of that we also have a more robust transition 
program, just like the Marine Corps in many ways, with multiple 
pathways to make sure that the training is done.
    When it is time for them to do the transition course--when 
it is time to do the transition course, that is their place of 
duty. So we make sure that we have that, sir.
    Admiral Moran. Sir, I agree with everything that has been 
said. The Navy is very much in the same position in terms of 
how we treat sailors that have been notified they are leaving 
the service.
    I would only add that I think we have all experienced some 
tremendous partnerships with organizations outside of the 
military services that are offering their assistance and help 
to place sailors and veterans who are looking for jobs in--on 
the outside and matching their skill sets to those jobs. There 
is a very robust effort across the services, and I think we are 
finding that to be very helpful for sailors.
    Mr. Jones. Thank you.
    General Bromberg. Sir, very much in line with the other 
services, with our policies the shortest amount of time anybody 
would have notification would be 6 months, as required by law, 
for those that are--have selected early retirement. For NCOs 
[noncommissioned officers] there is--by policy we have up to 12 
months to transition. Transitions are in place of duty. 
Commanders run the program--great partnerships, as well.
    Mr. Jones. Thank you very much, Mr. Chairman. I yield back.
    Mr. Wilson. Thank you very much.
    We now proceed to Congresswoman Madeleine Bordallo, of 
Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary Wright, General Bromberg, General Cox, Admiral 
Moran, and Ms. Murray, thank you for appearing today.
    You are all charged with the challenging mission of 
operating military personnel programs in a difficult time with 
the current fiscal climate. It was recently brought to my 
attention in my office that the U.S. Army and the U.S. Navy may 
be allowing service members to be honorably discharged without 
fulfilling their Active Duty service commitments [ADSC] in 
reference to the post-9/11 GI bill.
    Now, in the cases I have seen, service members apply to 
retire or separate and the services allows them to. Then 6 
months later, after these service members have been told, ``You 
have met all your obligations and you are free to leave,'' they 
receive a bill for the outstanding amount owed. Now, if they 
had just served a few weeks or maybe a month more this would 
not be the case, but they were not told that.
    I got some initial information from the Army about this 
matter. In fact, I have a name of a Guam Army soldier here who 
went through this and I think he only had a couple more weeks, 
if he had been told, and he now owes $84,000.
    I remain concerned that people are slipping through the 
cracks somehow. They may be case-by-case issues but I am 
fearful that there is a bigger problem that we need to address.
    So my question for General Bromberg and Admiral Moran is, 
what steps do you have in place to ensure that service members 
do not depart without fulfilling their ADSC? Were you aware 
that this was an issue and what are you going to do about it?
    General Bromberg. Yes, ma'am. Thanks for that question.
    We do have a process in place for service remaining 
obligations upon out-processing that is supposed to be caught, 
and then we have a process for waivers. With respect to the 
post-9/11 GI bill, I have not heard of that specific case yet 
but I will take that for the record and I will get back with 
you and I will go re-look at our procedures.
    [The information referred to can be found in the Appendix 
on page 183.]
    I do know that we have had it for tuition assistance and 
other types of things that we control that we have granted 
waivers for, so I see those all the time, but I have not seen 
one for the GI bill so I will definitely follow up with you on 
that.
    Ms. Bordallo. General.
    Admiral Moran. Ma'am, I will do the same thing. I have been 
in the job 6 months, haven't seen one of those come forward. 
And so I am concerned because you raised the issue and I am 
happy to get back to you on that.
    [The information referred to can be found in the Appendix 
beginning on page 183.]
    Ms. Bordallo. And I can give you further information on 
this particular case. The results were another one that owes 
$104,000. And let's face it: That kind of money a veteran can't 
come up with.
    General Cox, you formerly served at Transportation Command 
so I trust you are familiar with the Global POV [privately 
owned vehicle] Contract, and given your current role, that you 
are familiar with how important the safe, efficient, and 
effective shipment of POVs is for the morale of airmen, 
soldiers, sailors, and marines. So after 15 years of excellent 
service by the incumbent, a new contractor that appears to have 
little or no prior experience in this area will assume 
responsibility for the movement of privately owned vehicles for 
the military as soon as May 1st.
    Now, what is being done by the Air Force--and for that 
matter, all of the services--to ensure that there is no 
degradation in service or quality of life for our service 
members?
    General Cox. Ma'am, I will have to take that one for the 
record--the specifics of the POV contract.
    [The information referred to can be found in the Appendix 
on page 184.]
    Ms. Bordallo. All right.
    Mr. Chairman, I yield back.
    Mr. Wilson. Thank you, Ms. Bordallo.
    We now proceed to Congressman Dr. Joe Heck, of Nevada.
    Dr. Heck. Thanks, Mr. Chairman.
    Thanks, all of you, for being here today.
    You know, I know you have talked a little bit about trying 
to balance the pay and compensation versus the readiness and 
training and equipment, and I think that is something that we 
are going to hear more of. I mean, we talk about not wanting to 
break--you know, keep the faith with our soldiers or promises 
made are promises kept, but keeping faith may take on a new 
definition as we move forward.
    Does it mean the old definition, which was primarily pay 
and benefits, or is it going to mean making sure that the 
person we send off to battle is appropriately trained and 
equipped? Or is it going to be someplace in between?
    My concern is that, you know, we have the Military 
Retirement and Compensation Modernization Commission out there 
that is supposed to be looking at this very issue. It is due 
back to Congress February of 2015 with its recommendations.
    But DOD [Department of Defense] is moving down a path of 
making changes prior to the information that is supposed to be 
collected by this commission. So whether it is changes in BAH 
[Basic Housing Allowance], the commissary surcharge, health 
care premiums and copays, or keeping a pay raise at something 
less than the EIC, it seems like DOD is wanting to make changes 
prior to getting the information from the commission.
    Why aren't we waiting? Why aren't we waiting for this group 
that is going out and holding stakeholder meetings, that is 
supposed to come back with an objective view of how we need to 
modernize compensation and retirement, before we start 
nickeling and diming all these programs?
    Ms. Wright. Sir, thank you. So the decisions that we have 
made so far, or in DOD, we believe that we have the sufficient 
analysis and rigor to make the decisions on TRICARE, BAH, 
commissaries.
    We also understand that we don't have the sufficient rigor 
to make the decision on retirement and we have sent four 
options to the commission, to Mr. Maldon, excuse me--for the 
retirement options. And so we haven't submitted anything on a 
modernization or a change in retirement because we really need 
him and his commission to analyze what we have sent and/or come 
up with another option or recommendation that we can take a 
look at to modernize retirement.
    But on those decisions that are in the budget, we believe 
that we really have analyzed them and that it is appropriate to 
submit them at this time.
    Dr. Heck. So even though it is called the Military 
Retirement and Compensation Modernization Commission, you 
believe that you can go ahead with changes--I mean, would you 
consider health care benefits a form of compensation?
    Ms. Wright. Yes, sir. That is----
    Dr. Heck. Is the surcharge to a commissary a form of 
compensation?
    Ms. Wright. It is compensation and benefits, yes----
    Dr. Heck. Okay. So yet, we, this body empaneled a 
commission to comprehensively look at these issues, to come 
back with recommendations, and what happens in 2015 when they 
come back and they have a whole host of recommendations that 
might be contrary to what is being put forward now, EIC at less 
or a pay raise less than EIC for the second year in a row?
    Ms. Wright. And sir, if we have to tweak our 
recommendations or change our recommendations or if we find out 
what we have done is contrary to what we thought it would 
produce, we will change. I mean, our going-in proposition is to 
provide benefits to the service member and the family, but also 
to keep them trained and well-equipped so they can do their 
job.
    Dr. Heck. And I understand, you know, the position you are 
in. You are in that position because of what we have done in 
this body.
    Ms. Wright. Yes, sir.
    Dr. Heck. In full disclosure, I mean, we are the ones that 
gave you the parameters in which you have to operate.
    But in seeing that, that is why the Armed Services 
Committee went forward with putting forward this commission to 
try to come back with what would be a holistic approach from an 
outside group--I mean, let's--you know, not doubting anybody's 
rigor in analysis, but having an outside entity review this 
rather than a set of internal eyes on how changes should be 
made would probably offer a little bit more comfort to those 
that ultimately have to make these decisions when we vote here.
    And I am just concerned that you are moving down a path, 
whether it is with TRICARE premiums and copays, or changes to 
BAH, or other things that are considered compensation, prior to 
the committee's getting the recommendations from the 
commission.
    So thank you, Mr. Chair. I yield back.
    Mr. Wilson. Thank you, Dr. Heck.
    And we now proceed to Congresswoman Niki Tsongas, of 
Massachusetts.
    Ms. Tsongas. Thank you, Mr. Chair.
    I would like to follow up a little on what Congressman Heck 
has commented upon, that sort of some of the piecemeal 
decisions that you have made for, you know apparently good 
reasons, you know, you have suggested there was adequate rigor, 
you are very mindful of how to maintain the readiness of those 
who continue to serve and need to be prepared. But I think we 
all know that, given that the commission might come forward 
with slightly different recommendations, the lack of certainty 
creates a lot of turmoil in the families of those serving and 
of our service members.
    So it is just a note to you that sometimes a holistic 
approach works better, in which there is more clarity, more 
certainty, and everybody understands what the rules of the road 
are going to be for a discrete and certain period of time.
    Can you imagine that next year you might have additional 
proposals to make as to how to curtail some of the compensation 
benefits that you have already talked about?
    Ms. Wright. Ma'am, to paraphrase what the chairman has said 
is, instead of doing a Band-Aid approach, where we kind of do 
compensation around the edges--compensation and benefits--we 
wanted to go in with a holistic package to then understand that 
this is what we would like to do for compensation and benefits 
so we can take that balance and use it for readiness.
    And you just heard, excuse me, General Cox say that they 
grounded so many fighter squadrons in 2013. To bring that 
training up to a level where their readiness is sufficient 
takes a very long time. If we don't use the money that we can 
get from that balanced approach then we will never get those 
fighter pilots to the proficiency that we need to get them to 
perform the mission that we are asking them to perform.
    So I know I keep saying balance, but unfortunately, there 
is--I can't find a better word. It is that balance of quality 
of life and quality of service.
    I don't know if anybody would like to add particularly how 
the readiness in 2013 affects the decisions we are making 
today.
    General Bromberg. So as we are building readiness, for 
example, ma'am, we canceled seven combat training, seven 
rotations this year. It is really degrading the near-term 
readiness. And we are also inactivating units at the same time.
    So that friction that we are creating, it takes us so long 
to build that back. We have got to make these nearer-term 
savings in the next couple years, otherwise we are going to dig 
ourselves into a hole that we are just not going to be able to 
get out of well past 2020. And then when the full sequestration 
goes into effect, we are going to dig deeper and deeper.
    So we see ourselves eroding current readiness today and 
mortgaging our future, and we think that is just really very 
concerning to us as we mortgage the future. We just know that 
we cannot do that, particularly when we look at the uncertain 
environment we are in today. If we are asked to do something 
else next year we cannot afford to send an unready unit.
    Admiral Moran. Ma'am, all I would add to that is that we 
had several things we had to cancel or delay, like ship 
deployments and shutting down air wings or bringing them back 
to tactical hard deck, which is minimal proficiency, just to be 
safe. Those things have rippling effects in morale; they have 
rippling effects in readiness.
    So I would also add that last year we had authorities left 
for us to use other money to help offset some of those. We ran 
out of all that for this year, so that is why this year the 
choices for this budget were particularly hard.
    And so you ask why we go forward with those choices, it is 
because there is nowhere else to go, in our view. And so the 
trades had to be made, that balance across readiness and 
training with pay and compensation.
    Ms. Tsongas. Thank you.
    General Cox. Yes, ma'am, I have already highlighted the 
fact of the grounded squadrons from last year. You know, as we 
look there is--over the course of the last 13 years there is a 
wide spectrum of things that we have accomplished over in 
Afghanistan and Iraq and other parts of the world, other 
conflicts that have taken place.
    There is a much bigger spectrum that we are expected to be 
able to manage, and that includes operating in a non-permissive 
environment. Those are the kinds of things that we have got to 
invest in to make sure that we are ready into the future, as 
well. So that balance, as we have talked about at length here, 
is really important.
    Mrs. Murray. Ma'am, thank you for the opportunity to 
comment on that.
    I would echo everything that we have said here. For the 
Marine Corps I would add reset is significant based on our many 
years at war. Our equipment reset is critical. Our Commandant 
recognized we can't wait for a few more years; we must support 
these initiatives that have gone forward.
    And I would also add, recruiting and retention is very high 
in the Marine Corps. We have today many, many packages, 
requests from marines who want to reenlist.
    They know. They read. They understand what is happening and 
they are making a decision. It is a tough one for all of us. 
They want to stay. They want to serve. They want to bear the 
title ``Marine.''
    And so we are not having any problem today--we watch that 
carefully, but we are not having any problem today recruiting 
and retaining the force we need for the future. Thank you.
    Ms. Tsongas. So the gist of it really is that the near-term 
exigencies of maintaining readiness, the fact that you felt you 
had sufficient reliable information to make some of these 
piecemeal changes, forced a decision that you may yet be forced 
to revisit once the commission comes back.
    Thank you.
    Mr. Wilson. Thank you, Ms. Tsongas.
    We now proceed to Congressman Austin Scott, of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    Ladies and gentlemen, thank you for being here. And sit 
here and I know Americans are scratching their heads that we 
are trying to balance between promises we made to veterans and 
equipping and training our men and women in uniform, and yet we 
can't get the votes to get rid of free cell phones up here, and 
it is just--that is the perfect example of us having our 
priorities out of order I think.
    But I thank you for your service and I am proud to 
represent both Robins Air Force Base and Moody Air Force Base 
in Georgia, and I am concerned about the impact of the cuts not 
only on our uniformed personnel but on our civilian workforce. 
Obviously the people that prepare the equipment for the 
warfighter play a valuable and important role in sustaining the 
missions.
    I believe there has got to balance. I think we need our 
organic capabilities and I think we need our private 
contractors to provide weapon systems for us.
    But our civilians as a part of the workforce--the depots, 
the arsenals, and the other roles that they play in management 
and acquisition--some proposals were put out a couple of weeks 
ago that said that we would just arbitrarily eliminate 15 
percent of the civilian workforce, and I am extremely concerned 
about these arbitrary cuts the way we did sequester and the 
effect that they would have on readiness.
    If that arbitrary cut were put in place, do each of you 
believe that it would jeopardize readiness to just do an 
across-the-board 15 percent reduction in the civilian workforce 
in the depots and the arsenals? And what would happen to the 
acquisition and the procurement process if we just did an 
arbitrary 15 percent across-the-board cut?
    Ms. Wright. Sir, I will tell you as the chief personnelist, 
I really, truly value our civilian employees, whether they work 
in the Pentagon or whether they work outside the District of 
Washington. And we could not do as a military what we do 
without our civilian employees, and truly, without our 
contractors. But again, that is the personnel pie that makes 
our DOD work.
    Without a lot of rigor in analysis I couldn't tell you what 
a 15 percent salami-slice cut would do. I personally don't 
believe in a salami slice--yes sir, you----
    Mr. Scott. Ma'am, 15 percent might be closer to a ham than 
instead of a salami.
    Ms. Wright. It may be closer to a ham, yes sir. Fifteen 
percent is a very large--a large portion.
    And some will say that during this period of protracted war 
we have increased in our civilians, and we have. That is just a 
math issue. We have.
    But we have also increased programs and policies and 
benefits to our military members that require those very good 
civilians to do their job, to maintain the ships, to maintain 
the tanks. So from a personnelist standpoint and a DOD 
perspective, I think our civilians are truly worth their weight 
in gold and we need to be very, very circumspect of how we 
manage them.
    I will let the----
    Mr. Scott. Ma'am, if I may, I am down to just over a 
minute, I would like to go to General Cox just because of my 
representation of the Air Force base.
    The cuts to the civilian workforce, just 15 percent across 
the board, what does that do to depots and to the readiness?
    General Cox. Sir, as you have highlighted, many of the 
things that you addressed in your statement or comments--you 
know, that the acquisition process, the contracting, the, you 
know, fixing airplanes, launching airplanes, our civilian 
workforce is critical to make all that happen. A 15 percent cut 
across the board for the United States Air Force would be 
something like 27,000 civilian personnel let go. It would have 
a significant impact for United States Air Force.
    Mr. Scott. Thank you.
    And, Mr. Chairman, I yield the remainder of my time.
    Mr. Wilson. Thank you, Congressman Scott.
    We now proceed to Congressman Dr. Brad Wenstrup, of Ohio.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    And thank you all for being here and taking on these 
difficult tasks.
    One of the things that I think that would be extremely 
difficult in your jobs right now is involuntary separation. As 
was mentioned, I know marines and soldiers and airmen, seamen, 
they all are proud to wear the uniforms that they wear and many 
of them do not want to separate. So you have the unenviable 
task of involuntary separation in a lot of cases.
    So for example, I am familiar with the qualitative 
separation program and the Officer Separation Board, but could 
you take me through that, how you are dealing with these 
separations that aren't willing, especially?
    General Bromberg. Yes, sir. I think the first thing is that 
we value all the members' service--officer, NCO, and down to 
the lowest private. Everybody's service is valued, and we are 
trying to do this in the most transparent way.
    So for example, for the Officer Separation Board, even the 
SERB--the early retirement board for the colonels and 
lieutenant colonels--every colonel and lieutenant colonel was 
counseled by a general officer before that board met and they 
were given an option to voluntarily retire with additional time 
that would give them more time if they were selected before 
they even--that board even met.
    The same thing for the noncommissioned officers. They are 
notified ahead of time well in advance of when that is going 
into effect. They have a chance to review their files. And then 
for the NCOs--for the 1,100 NCOs we have selected over the last 
3 years, those NCOs will be given 12 months to transition from 
the time they are notified they have to retire or separate.
    And we also offer between those between 15 and 20 years of 
service, if they are selected for separation, the option to go 
ahead and ask for early retirement as well, and we have takers 
of that.
    So a transparent program, personal counseling, looking 
people in the face, and with the feedback we have had to date 
so far has been that that is what is most important, so 
somebody sits down and talks to them and it is not just 
somebody faceless where they get a piece of paper in the mail.
    Dr. Wenstrup. I appreciate that effort.
    If the other branches would like to----
    Admiral Moran. Sir, fortunately for me, we are in a 
position where our end strength matches our force structure 
through the fiscal year defense plan, so we do not foresee 
having to use involuntary measures as far out as I can look. So 
we did a significant downsizing earlier last decade and have 
leveled off and project that we will remain in that position 
for the next 5 years at least.
    Dr. Wenstrup. So yours are more through natural 
retirement----
    Admiral Moran. Natural retirement. I think the biggest 
challenge for us, much like the Marine Corps, is that we have 
got a lot of sailors who want to stay, so high retention is our 
greater challenge. It is a good place to be.
    Dr. Wenstrup. Yes, sir.
    General Cox. Sir, we certainly have had very high retention 
rates over the course of the last decade. As we bring the force 
down--it is approximately 16,000 on the active force--16,700 by 
the end of fiscal year 2015--we have very much focused on the 
voluntary programs first prior to any involuntary.
    In addition to that, we provide incentives for individuals 
to take the voluntary programs and so it is an approximately 25 
percent add to whatever the normal separation would be. 
Commanders are involved throughout the process to make sure 
that folks are informed about where they sit relative to their 
peers and then whether they should make that family decision to 
separate for the voluntary or wait and look at the involuntary 
separation.
    Dr. Wenstrup. Thank you.
    Yes, ma'am.
    Mrs. Murray. I would just add to what we have already heard 
here. I think that for the Marine Corps we are really 
emphasizing voluntary attrition.
    I will also say that while we have done 2 years of selected 
early retirement boards for our lieutenant colonel and our 
colonel population, we have seen that there is behavior 
modification with that. So it is--that first group it was a 
shock, and we did all the sort of things that we have talked 
about: making sure they knew ahead of time, offering them the 
opportunity to choose their retirement date, to take the time 
to do that.
    But we found that our lieutenant colonel and our colonel 
population realize now we are in a new, different world here 
and they are making the decisions. So this last year's board 
that we had we selected very few.
    We had a requirement to select very few because many of our 
officers now want to go on their own choice. They have had a 
wonderful career and they want to leave on their own terms. And 
that has worked very well for us.
    And we are now just this year starting to look at our E-6, 
our staff sergeant population, and our majors, who prior could 
have served until 2020. Again, we are making the tough 
decision. If they are twice passed over for selection we will 
now consider them as well for continuation board.
    But we are only looking at those who would have the 
opportunity, if selected, to go home to participate in the 
early retirement program. So in everything that we do our 
Commandant is emphasizing: keep faith--what that means to us is 
no rifts, no sending someone home who has been on their A-game 
without having the opportunity, for instance, as the early 
retirement program.
    Dr. Wenstrup. Well, I appreciate the thoughtful approach to 
that situation. Thank you.
    I yield back.
    Mr. Wilson. Thank you very much, Dr. Wenstrup.
    And I have one more question really for the record, and 
that is for Ms. Wright, and that is, the Department is 
proposing to reduce the commissary funding by $1 billion over 
the next 3 years. Approximately 70 percent of the appropriated 
funding goes to pay the employees, who are significantly 
military spouses and dependents, but allows the commissaries to 
provide goods at a cost plus a minimum surcharge, equaling 
about 30 percent saving for each family during the year.
    And my questions, if you could get back with me: How long 
will the commissaries now operate with the employees' salaries 
coming out of profits? What do you foresee the 30 percent 
savings dropping to be? Although you have not directed any 
commissaries to be closed, depending on the reaction to reduced 
savings with the respect to volume of patrons in the stores, do 
you think this will force stores to close and drive military 
families and retirees to off-base shopping?
    And if you will get back with me it would be fine.
    And, Mrs. Davis, did you have----
    Ms. Wright. I will, sir. Thanks.
    [The information referred to can be found in the Appendix 
on page 181.]
    Mrs. Davis. Thank you, Mr. Chairman.
    And maybe for the record, as well, just--I think certainly 
on the TRICARE piece is big shift, big change, and I would like 
to know what kind of preparation is being done in the services 
to advise and to work with Active Duty as well as everyone who 
is affected by that for these changes that are being proposed. 
And again, these are not decisions that have been made but they 
are the changes that are being proposed and they have some--
quite a bit of significance, particularly because it is a 
cumulative effect that we are talking about here and I suspect 
that the health care one is one that is certainly going to be 
felt.
    The chairman mentioned the commissaries, and I think that 
also is very important. It affects people differently depending 
upon where they live and how they utilize the commissary, but 
my suspicion is that this is not something that people identify 
on questionnaires as something that they would look forward to 
giving up. I don't think this is--I think people love this 
benefit and I think that it makes a difference for them, and I 
suspect if--you know, that is going to be an issue moving 
forward and so we need to kind of understand that from their 
responses, as well.
    And then finally, I think just looking at the GI bill--the 
post-
9/11 GI bill--and the ramifications, perhaps, of transfer of 
eligibility rules and how that could impact people going 
forward and perhaps the fact that they would choose to stay in 
rather than leave the service even, you know, because of those 
transfer of eligibility rules--how does that have an impact? Do 
we need to look at those policies?
    Thank you.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
beginning on page 181.]
    Mr. Wilson. Thank you, Mrs. Davis.
    Anyone else?
    Hearing no further, the meeting is now adjourned.
    
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]


=======================================================================

                            A P P E N D I X

                             March 25, 2014

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 25, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
    
    
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 25, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 25, 2014

=======================================================================


             RESPONSES TO QUESTIONS SUBMITTED BY MR. WILSON

    Ms. Wright. Our estimates of the impacts of the proposals on the 
monthly compensation of members are in the attached charts.   [See page 
4.]
    [The charts referred to can be found in the Appendix beginning on 
page 171.]
    Ms. Wright. Commissaries considered remote and isolated will remain 
open to support areas where access to a commercial grocery store is 
limited as will overseas commissaries. There are no plans to close any 
commissaries in the United States. Customer usage will determine 
whether or not any commissaries close in the United States. Customer 
savings at the commissary currently average 30% over commercial grocery 
stores and will decrease. The projected savings will fluctuate as they 
do in the commercial sector but we believe they will be substantial 
enough to retain customers.
    This is a benefit that we take seriously, and we are trying to 
mitigate the effects of any changes that can impact our Service members 
and their families.   [See page 17.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS
    Ms. Wright. We believe the current Post-9/11 GI Bill 
transferability policy is having a crucial, positive impact on military 
recruiting and retention efforts. In the less than five years since the 
Bill became effective, over 373,369 career Service members have 
transferred their Post-9/11 GI Bill benefits to over 805,000 family 
members and research indicates more than half of recruits cite 
educational benefits as one of their top reasons for entering the 
Services. The Department is also finding that many career Service 
members are extending their service commitment so they may share this 
benefit with family members. We believe these facts demonstrate the 
policy is successful on all levels--encouraging new Service members to 
join and retaining our most seasoned service men and women. Based on 
this assessment, the Department believes the current transferability 
policies are effective in supporting our recruitment and retention 
goals and no additional changes in rules or policies are required. We 
will continue to carefully monitor the usage and take rates on this 
benefit to ensure we continue on the right course.   [See page 17.]
    General Bromberg. Although the proposed TRICARE changes remain pre-
decisional, we have provided implications of the proposed legislation 
to Congress and will continue to do so. If Congress approves these 
changes, we in the Army and the other Services will be extensively 
involved with the DOD in preparing other communications products to 
inform all beneficiaries of potential TRICARE program changes.
    The current proposal does not close down commissaries. The 
recommendation is to gradually phase out subsidies, but only for 
domestic commissaries not in remote areas. Commissaries as with other 
programs will be seriously jeopardized if we don't have operational 
funds and the resources to be able to implement them.
    Section 3020 of title 38, United States Code, authorizes eligible 
Soldiers to transfer unused educational benefits to family members, 
pursuant to Secretarial approval and designed to serve as a recruiting 
and retention incentive. An exception is granted if separation is a 
result of force shaping or reduction in force initiatives. Soldiers 
separated under these programs may only retain the transferred benefits 
if the transfer was requested prior to selection and otherwise eligible 
to transfer benefits. This exception does not apply to Soldiers who 
retire or separate in lieu of consideration by a separation board.   
[See page 17.]
    Admiral Moran. The Navy supports the changes to TRICARE contained 
in the President's Budget, including initiatives to simplify and 
modernize the program through the Consolidated Health Plan, and update 
beneficiary out-of-pocket costs with modest increases. These changes 
are important to ensuring the delivery of a sustainable and equitable 
health care benefit. We do, however, recognize that the proposed 
changes, if authorized by Congress, will impact service members and 
their families, as well as our retired personnel and their families.
    However, I expect the changes to be relatively minor. Active duty 
service members and their families will have access to the same medical 
care they have now. Medical care for active duty members will continue 
to be provided at no cost to the member, as will care provided at 
Military Treatment Facilities to family members of active duty 
personnel. The payment structure will incentivize family members to use 
health care services that minimize cost to taxpayers. Based on 
estimates from the Office of the Assistant Secretary of Defense (Health 
Affairs), co-payments for family members of junior enlisted personnel 
(E4 and below) will be less than those for senior personnel.
    To date, we understand that the Department of Defense has been 
actively communicating with the Veterans Service Organizations (VSOs) 
and Military Service Organizations (MSOs) on the importance of the 
proposed changes and their impact on TRICARE beneficiaries.   [See page 
17.]
    General Cox. Though the proposed TRICARE changes are still pre-
decisional, the Air Force is prepared to engage with the Defense Health 
Agency's (DHA) Beneficiary and Education Support Branch to provide 
Service-level input to the DHA's system-wide TRICARE marketing plan and 
educational materials. The Air Force Medical Service will provide 
information to beneficiaries we serve through installation resources, 
including: Military Treatment Facilities, Family Readiness Centers, 
Health Care Consumer Advisory Councils, base newspapers, Retiree 
Affairs, and town hall style meetings led by health benefits advisors.
    The commissary is certainly a valued benefit which offers up to 30% 
savings to our service members who frequently use them. The proposed 
reduction to commissary funding will lead to a reduction of annual 
direct commissary subsidy, which will increase expenses for service 
members who utilize them, but there will still be the ability to 
provide a good deal for service members and retirees.
    Based on information submitted by the Office of Secretary of 
Defense to Congress in its 2013 report on Post-9/11 GI Bill, I do not 
believe a policy review for this program is required at this time. The 
Report states, that although the new program is only 4 years old, there 
are strong indications the program has already had a profound, positive 
impact on recruiting and retention.
    As of September 25, 2013, over 373,369 career DOD Service members 
were approved to transfer their Post-9/11 GI Bill benefits to over 
805,000 family members. This brought to DOD well over 800,000 
additional man years of committed service through transferability of 
education benefits.
    Also, in the 2013 Recruit Survey Report, conducted by the Joint 
Advertising Market Research and Studies, an overall 53 percent of 
recruits cited educational benefits, not limited to Post-9/11 GI Bill, 
as among their top reasons for entering the Services.   [See page 17.]
    Mrs. Murray. Currently, Congress is evaluating whether to enact 
DOD's compensation reform proposals. If and when that occurs, the 
Marine Corps will ensure our Marines are educated and advised on what 
changes will be made, who is affected, when and how the changes will be 
implemented, and why the changes are necessary.
    The Marine Corps surveys Marines on a regular basis for many 
purposes, to include retention and overall quality of life. In these 
surveys, information is often gathered to determine which benefits 
influence Marines' decisions to remain in the Marine Corps or are most 
important to their quality of life. These surveys show differences 
amongst Marines on what benefits they value. For example, a 19-year old 
Lance Corporal may be concerned about getting the best training to 
succeed in combat, while a Major with 15 years of time in service may 
be more focused on the health care for his family. Although a specific 
survey on DOD's proposed compensation reforms has not been conducted, 
we know that Marines value their commissary benefit. However, the 
larger point remains: each of DOD's proposed reforms is necessary to 
slow the growth of compensation in order to preserve readiness. If any 
should prove overly detrimental to recruiting, retention, or the 
overall quality of our force, they can be reversed.
    Recruiting and retention within the Marine Corps remains high due, 
in part, to benefits such as the ability to transfer entitlement to 
educational assistance under the Post-9/11 GI Bill. With this said, we 
are finding that many otherwise qualified Marines have encountered 
challenges gaining access to this critical benefit. As a result of a 
technicality within the transfer law, elections to transfer entitlement 
to educational assistance must coincide exactly with reenlistments. 
Those who have completed at least six years of service and reenlisted 
for four additional years, but did not simultaneously elect to transfer 
benefits at time of reenlistment, are not eligible to transfer. We 
believe that this result is not consistent with the spirit or intent of 
the statute and warrants a technical change to clarify. The 
clarification of 38 USC 3319(b) would specify that individuals who have 
completed at least six years of service and enter, or have entered, 
into an agreement to serve at least four more years are eligible to 
transfer entitlement to educational assistance.   [See page 17.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. BORDALLO
    General Bromberg. The Army uses both an on-line notification system 
and a manual record check system when Soldiers depart the service to 
ensure they are aware of their service obligation remaining for various 
benefits, including the Post-9/11 GI Bill. When a Soldier elects to 
transfer Post-9/11 GI Bill benefits, they must use the Transfer of 
Education Benefits (TEB) webpage in the milconnect portal. Before a 
Soldier submits his/her TEB request from the webpage, he/she is 
required to read the TEB acknowledgement statement, which informs 
Soldiers that, if they elect to transfer benefits, they will incur an 
additional service obligation. Soldiers are also advised that failure 
to complete their service obligations may result in recoupment of 
benefits paid by the Department of Veterans Affairs. The TEB service 
obligation is listed in milconnect as the ``TEB Obligation End Date'' 
(OED) for all components. Once approved, the OED is listed below the 
Soldier's TEB status, and on the approval form provided for Soldiers to 
print for their personal records. Each Army component uses a different 
personnel system to annotate the OED. For the regular Active Army, the 
OED is recorded in the Total Officer Personnel Management Information 
System for officers and in the Enlisted Distribution Assignment System 
for enlisted. For the Army Reserve (USAR), the OED is not included in 
any USAR database, but Human Resources Command (HRC) is developing a 
process to load the information into an HRC database, for which the 
USAR will have access to review, including Army Reserve Regional 
Support Commands and others, as required. For Soldiers in the Army 
National Guard (ARNG), the OED is listed in both the Guard Incentive 
Management System and the Director's Personnel Readiness Overview 
system.
    Regular Army Enlisted Soldiers receive general TEB counseling from 
Retention NCOs during routine reenlistment counseling. They can obtain 
additional information regarding the TEB OED through the TEB webpage, 
and the TEB Approval Form within the milconnect portal. Regular Army 
Enlisted Soldier (E-1 to E-6) records should be reviewed at the 
installation-level Military Personnel Division, and the Regular Army 
Enlisted (E-7 to E-9) and Officer records are reviewed by the HRC 
Enlisted and Officer Separation Branchs to ensure the TEB service 
obligation has been fulfilled prior to issuing separation orders. The 
ARNG allows each of the 54 states and territories to implement their 
counseling requirements for the TEB service obligation prior to issuing 
separation orders.
    Regarding the ARNG Soldier who retired before fulfilling his 
obligation, and later received a bill from the VA: The Soldier was 
counseled in March 2013, prior to his retirement date of June 2013, 
about the remaining service obligation, and the possibility that VA 
could create an overpayment action based on the benefit months used by 
his daughter if he were to leave prior to the completion of the 
required service obligation. If the Soldier desired to eliminate any 
possible future debt from the Department of Veterans Affairs, he could 
have ceased his out-processing from the service and continued to serve 
until his obligation was satisfied. Once the decision was made to 
continue out-processing, the Soldier was required to acknowledge online 
via the TEB webpage that he understood that the future to remain in the 
Armed Forces for the period required may lead to overpayment by the 
Department of Veterans Affairs.
    On December 1, 2013 HRC's Army Continuing Education Division began 
automatic e-mail notification to all Regular Army and USAR Soldiers at 
the time their TEB request is approved; the notification states that 
the Soldier's TEB request has been approved, and reflects his/her 
incurred service OED.   [See page 9.]
    Admiral Moran. Enlisted personnel serve under contractual 
obligation for specific periods of time, with an expiration of service 
date established under the contractual agreement. Officers serve on 
indefinite commissions at the pleasure of the President. These 
contractual obligations and commissions are the mechanisms by which 
Sailors are required to fulfill a legal obligation to complete their 
service. However, there are a number of circumstances, within law and 
policy, which provide for members to be released, voluntarily or 
involuntarily, prior to completion of their obligations.
    At the time a member applies for a transfer of education benefits 
(TEB) distribution under the Post-9/11 GI Bill, members must commit to 
a period of additional obligated service. Department of Defense 
Instruction 1341.13, of May 31, 2013, stipulates that if an individual 
transferring entitlement fails to complete the required period of 
obligated service, the amount of any transferred entitlement that is 
used as of the date of such failure shall be treated as an overpayment 
of educational assistance and, shall be subject to collection by the 
Department of Veterans Affairs. When applying for TEB, each member 
acknowledges, in writing, responsibility for any overpayment due to 
failure to complete any term of obligated service. That said, 
overpayment does not apply to Sailors who do not complete the period of 
obligated service due to death, or discharge or release from active 
duty or the Selected Reserve for:
    <bullet>  non-service-connected pre-existing medical condition;
    <bullet>  hardship as determined by the Secretary of the Navy; or
    <bullet>  physical or mental condition, not a disability, which did 
not result from willful misconduct, but interfered with the performance 
of duty.
    Also, a member transferring benefits is considered to have 
completed his or her service agreement as a result of being discharged 
for a disability or a reduction in force or force shaping.
    A member, who does not complete the required obligated service and, 
as a result, is subject to overpayment, may apply to the Department of 
Veterans Affairs Board of Veterans' Appeals, following guidelines in VA 
Form 4107, entitled, ``Your Rights to Appeal Our Decision''.
    Navy does not currently remind Sailors who separate or retire prior 
to completing obligated service associated with Transfer of Education 
Benefits (TEB) under the Post-9/11 GI Bill, that they may be subject to 
recoupment by the Department of Veterans Affairs (VA), and that they 
may apply to the VA for waiver of indebtedness, but I have directed my 
staff to develop and implement such policy and procedures as soon as 
possible.   [See page 9.]
    General Cox. The Global Privately Owned Vehicles Contract (GPC) III 
solicitation requires the awardee to provide the same, and in many 
cases improved, services regarding in-transit visibility, shipment 
time, on-time arrival rates and terms regarding in-transit damage. 
Performance is monitored by Contracting Officer Representatives 
assigned to each Vehicle Processing Center (VPC) worldwide. We do not 
anticipate any degradation of performance; however, the Government has 
a variety of remedies available to address the failure of a contractor 
to perform as contractually required.   [See page 10.]


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 25, 2014

=======================================================================

                  QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. The Air Force plans to reduce end strength by nearly 
20,000 personnel by the end of FY19, a number which could increase 
depending on whether full sequestration returns in FY16. What is the 
expected cut to the Air Force acquisition workforce? How would any 
potential reduction impact your ability to conduct the procurement of 
next generation aircraft and IT systems? How are you ensuring that you 
retain the right mix of high-demand, high-skilled officers and 
civilians?
    General Cox. The Air Force is aware that it must maintain the right 
mix of high-demand and high-skilled military officers and civilians in 
mission critical occupations. As the Air Force undergoes a reduction in 
end strength, we are only targeting specific career fields through 
force management programs for those positions identified for reduction 
in the FY15 President's Budget.
    The STEM personnel we rely on to maintain our technological edge 
are a prime example of high-demand, highly-skilled professionals. Our 
decisions regarding the right mix of officer and civilian scientist and 
engineers are guided by Bright Horizons--the Air Force STEM Workforce 
Strategy, which is now in its second generation as recently signed by 
Secretary of the Air Force Deborah James and Chief of Staff General 
Mark Welsh III. A primary strategic goal of Bright Horizons 2.0 is for 
the Air Force to appropriately apply force management practices to 
build and maintain a highly competent, diversified and agile force at 
the right grade levels, at the right time, and the appropriate 
locations.
    For example, although we've had to take a share of force management 
cuts in our cadre of acquisition officers, we've been able to reduce 
the impact to scientists and engineers by appropriately balancing the 
cuts in non-technical career fields such as acquisition program 
management.
    In addition, when we do identify overages of science and 
engineering officers in the acquisition workforce and laboratories, 
we're looking for opportunities to cross-flow and retain these 
personnel elsewhere in the Air Force in other career fields that will 
benefit from their STEM degree, such as our growing need for space and 
cyber professionals.
    Finally, as the Air Force reduces the number of military personnel, 
we're working to use tools the Congress has provided to maintain the 
quality of our civilian workforce, such as Expedited Hiring Authority 
and the Defense Acquisition Workforce Development Fund established by 
the FY08 NDAA Sec 852 to attract separating military personnel to 
continue service as a civilian Air Force acquisition workforce member.

                                  <all>
</pre></body></html>
